Department of State Report No. MERO-A-10-06
Department of Defense Report No. D-2010-042   February 9, 2010




        United States Department of State
and the Broadcasting Board of Governors
               Office of Inspector General




             Department of Defense
             Office of Inspector General




 DOD Obligations and Expenditures of
 Funds Provided to the Department of State
 for the Training and Mentoring of the
 Afghan National Police
Additional Copies
51B




To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
52B




To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
53B




AIJS                          Afghanistan, Iraq, and Jordan Support
ANP                           Afghan National Police
ANSFs                         Afghanistan National Security Forces
ASF                           Afghanistan Security Forces
CENTCOM                       U.S. Central Command
CIVPOL                        Civilian Police Program
COR                           Contracting Officer’s Representative
CSTC-A                        Combined Security Transition Command-Afghanistan
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DOS                           Department of State
FAH                           Foreign Affairs Handbook
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
I-COR                         In-Country Contracting Officer’s Representative
IG                            Inspector General
INL                           Bureau of International Narcotics and Law Enforcement
                                Affairs
MOA                           Memoranda of Agreement
MOI                           Ministry of Interior
NAS-K                         Narcotics Affairs Section-Kabul
QASP                          Quality Assurance Surveillance Plan
RTC                           Regional Training Center
SOW                           Statement of Work
WPC                           Women’s Police Corps
                                       INSPECTORS GENERAL

                Department of Defense                           Department of State
                400 Army Navy Drive                           2121 Virginia Ave N.W.
               Arlington, Virginia 22202                      Washington, D.C. 20037
                                                                                 February 9, 2010

MEMORANDUM FOR COMMANDER, COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF STATE FOR THE BUREAU
                 OF INTERNATIONAL NARCOTICS AND LAW
                 ENFORCEMENT AFFAIRS
               ASSISTANT SECRETARY OF STATE FOR THE BUREAU OF
                 RESOURCE MANAGEMENT AND CHIEF FINANCIAL
                 OFFICER
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: DOD Obligations and Expenditures of Funds Provided to the Department of State
         for the Training and Mentoring of the Afghan National Police
         (Report No. D-2010-042 and MERO-A-IO-06)

We are providing this report for review and comment. We considered management comments
on a draft of this report when preparing the final report. We conducted this audit in response to a
congressional request.

DOD Directive 7650.3 requires that recommendations be resolved promptly. The Deputy
Commanding General, Combined Security Transition Command-Afghanistan, comments were
responsive on Recommendations B.3.a.-b., but were not responsive on Recommendations
B.3.c.-d. We redirected Recommendations E.1. and E.2. to the Commanding General, Combined
Security Transition Command-Afghanistan. Therefore, we request additional comments on
Recommendations BJ.c.-d. and comments on Recommendations E.1. and E.2. by March 9,
20 I O. The Assistant Secretary of State for the Bureau of International Narcotics and Law
Enforcement Affairs comments were partially responsive. We request additional comments on
Recommendations B.2.b. and C.2.a.-c. by March 9, 2010. The Assistant Secretary of State for
the Bureau of Resource Management and Chief Financial Officer did not respond to the draft
report. Therefore, we request that the Assistant Secretary of State for the Bureau of Resource
Management and Chief Financial Officer comment on Recommendations D.l.a.-c. and the
potential monetary benefits by March 9, 2010. We added Recommendation D.2.b. to the Under
Secretary of Defense (Comptroller)!ChiefFinancial Officer and request comments by March 9,
2010.

If possible, please send a .pdf file containing your comments to audros@dodig.mil. Copies of
the management comments must contain the actual signature of the authorizing official. We are
unable to accept the !Signedl symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET). Comments from the Department of State should be directed by
e-mail to Nick Arntson, Assistant Inspector General for the Middle East Regional Office at
arntsonn'(i),State.llOV.
                                                                                                 2




We appreciate the courtesies extended to the staff. Please direct questions to Mark A. Ives at
(Commercial from USA) 011-49-631-411-6055 (DSN 314-483-6055), Mark.Ives@dodig.mil,or
Glorial Young at (703) 604-8837 (DSN 664-8837), Gloria.Yolll1l!@dodig.mil.




Mary L. U gone
Deputy Inspector General fo                        Assistant Inspector General for
Department of Defense                               Middle East Regional Office
Office ofInspector General                         Department of State
                                                   Office ofInspector General
Report No. D-2010-042 (Project No. D2009-D000JB-0230.000)
Report No. MERO-A-10-06 (Project No. 09MERO3009)                                   February 9, 2010

                 Results in Brief: DOD Obligations and
                 Expenditures of Funds Provided to the
                 Department of State for the Training and
                 Mentoring of the Afghan National Police
                                                                    costs were allowable, allocable, or
What We Did
0B
                                                                    reasonable prior to payment and validate
We conducted this audit in response to a                            deliverables.
congressional request. Our objective was to
review the status of Afghanistan Security Forces             We were unable to determine if DOS expended
funds that DOD provided to the Department of                 Afghanistan Security Forces funds provided by
State (DOS) for the training of the Afghan                   DOD in accordance with Congressional intent.
National Police (ANP), the contract                          We also identified $80 million in potential
management activities, and the ability of the                monetary benefits. In addition, DOS and DOD
ANP training program to address the security                 have not provided enough resources to
needs for Afghanistan.                                       adequately train members of the Afghan
                                                             Women’s Police Corps.
What We Found
1B




                                                        What We Recommend
                                                        2B




The DOS Civilian Police Program contract does
not meet DOD’s needs in developing the ANP              The Commanding General, Combined Security
to provide security in countering the growing           Transition Command-Afghanistan, should:
insurgency in Afghanistan. The DOS and DOD                   clearly define the requirements for the
agreed to have DOD assume contractual                           ANP training program and establish
responsibility for the primary ANP training                     contractor performance standards that
program, which includes Regional Training                       will meet those requirements and
Centers, basic ANP training, mentoring within                direct the contracting officer for the new
the Afghan Ministry of Interior, and the DOD                    DOD contract to assign sufficient
police mentor teams embedded in ANP units in                    contracting officer’s representative staff
districts throughout Afghanistan. The DOS                       and implement effective contractor
internal controls were ineffective. We identified               oversight procedures.
internal control weaknesses in the DOS contract
oversight for the ANP training program. DOS             The Assistant Secretary of State for the Bureau
did not:                                                of International Narcotics and Law Enforcement
      maintain adequate oversight of                   Affairs should request audit support from the
         Government-furnished property,                 Defense Contract Audit Agency and request
      maintain contract files as required by the       refunds of any costs that the Defense Contract
         Federal Acquisition Regulation,                Audit Agency determines to be unallowable,
                                                        unallocable, or unreasonable.
      always match goods to receiving reports,
         or
                                                        The Commanding General, Combined Security
      follow internal control procedures
                                                        Transition Command-Afghanistan, in
         requiring in-country contracting
                                                        coordination with the Assistant Secretary of
         officer’s representatives to review
                                                        State for the Bureau of International Narcotics
         contractor invoices to determine if the



                                                    i
Report No. D-2010-042 (Project No. D2009-D000JB-0230.000)
Report No. MERO-A-10-06 (Project No. 09MERO3009)                                February 9, 2010


and Law Enforcement Affairs, should increase            Enforcement Affairs comments were
the resources devoted to developing the Afghan          nonresponsive. The Acting Assistant Secretary
Women’s Police Corps.                                   stated that he had requested assistance from the
                                                        Defense Contract Audit Agency in 2007, and
The Assistant Secretary of State for the Bureau         audit work started in March 2009.
of Resource Management and Chief Financial
Officer should:                                         However, we determined that no audit work has
     determine the status of the Afghanistan           been done and we requested an action plan and
        Security Forces funds provided by               timeframe for engaging Defense Contract Audit
        DOD;                                            Agency audit support.
     return any funds in excess of the
        amounts identified as appropriate               The Assistant Director, Defense Contract Audit
        disbursements and, at a minimum,                Agency, comments were responsive.
        return $80 million; and
     make appropriate corrections to the               We learned subsequent to the draft audit report
        annual financial statements and                 that the Combined Security Transition
        communicate any errors found to DOD.            Command-Afghanistan would retain control of
                                                        the Women’s Police Corps training program.
The Under Secretary of Defense                          Therefore, we redirected the recommendation to
(Comptroller)/Chief Financial Officer should            increase resources devoted to developing the
make appropriate corrections to the annual              Afghan Women’s Police Corps to the Combined
financial statements and request refunds from           Security Transition Command-Afghanistan.
DOS.
                                                        The Assistant Secretary of State for the Bureau
The Director, Defense Contract Audit Agency,            of Resource Management and Chief Financial
should review public vouchers submitted under           Officer did not provide comments to the draft
task orders 4305 and 5375 and conduct an audit          report; therefore, we request comments in
of the ANP training program.                            response to the revised recommendations in the
                                                        final report.

Management Comments and
3B
                                                        The Under Secretary of Defense
                                                        (Comptroller)/Chief Financial Officer
Our Response                                            comments were responsive to the draft
The Deputy Commanding General, Combined                 recommendation. We request comments in
Security Transition Command-Afghanistan,                response to the final report.
responding for the Commanding General,
provided comments that were responsive to               Please see the recommendations table on the
draft Recommendations A.1.-2., B.1., and                back of this page.
B.3.a.-b. However the comments were
nonresponsive to draft Recommendations
B.3.c.-d.; therefore, we request comments to the
final report.

The Acting Assistant Secretary of State for the
Bureau of International Narcotics and Law



                                                   ii
Report No. D-2010-042 (Project No. D2009-D000JB-0230.000)
Report No. MERO-A-10-06 (Project No. 09MERO3009)                           February 9, 2010

Recommendations Table
4B




Management                         Recommendations          No Additional Comments
                                   Requiring Comment        Required
Commanding General,                B.3.c.-d., E.1., E.2.    A.1., A.2., B.1., B.3.a.-b.,
Combined Security Transition                                B.3.e.
Command-Afghanistan
Under Secretary of Defense         D.2.b.                   D.2.a.
(Comptroller)/Chief Financial
Officer
Assistant Secretary of State for   B.2.b., C.2.a.-c.        B.1., B.2.a.
the Bureau of International
Narcotics and Law Enforcement
Affairs
Assistant Secretary of State for   D.1.a.-c.
the Bureau of Resource
Management and Chief
Financial Officer
Director, Defense Contract                                  C.1.a.-b.
Audit Agency

Please provide comments by March 9, 2010.




                                            iii
Table of Contents
Introduction                                                                1

      Objectives                                                            1
      Background                                                            1
      Review of Internal Controls                                           4

Finding A. National Strategy                                                5

      Management Actions                                                   9
      Recommendations, Management Comments, and Our Response               9

Finding B. Contractor Oversight                                            11

      Recommendations, Management Comments, and Our Response               16

Finding C. Contractor Invoice Review                                       21

      Recommendations, Management Comments, and Our Response               25

Finding D. Financial Management                                            29

      Recommendations, Management Comments, and Our Response               32

Finding E. Afghan Women’s Police Corps                                     34

      Recommendations, Management Comments, and Our Response               35

Appendices

      A. Scope and Methodology                                             37
            Prior Coverage                                                 38
      B. Congressional Request                                             39
      C. Memorandum of Agreement                                           41
      D. Memorandum Report                                                 54
      E. Management Comments on the Memorandum Report                      56

Management Comments

      Combined Security Transition Command-Afghanistan                     62
      Under Secretary of Defense Comptroller/Chief Financial Officer       71
      U.S. Department of State Bureau of International Narcotics and Law
         Enforcement Affairs                                               73
      Defense Contract Audit Agency                                        77
Introduction
Objectives
5B




We conducted this audit in response to a congressional request. Our objective was to
review the status of Afghanistan Security Forces (ASF) funds that the DOD provided to
the Department of State (DOS) for the training of the Afghan National Police (ANP).
Specifically, we reviewed the contract, task orders, statements of work, and related
modifications to ensure that they complied with Federal regulations and met the needs of
the DOD. We also reviewed contractor invoices to determine whether the claimed costs
were allowable, allocable, and reasonable. See Appendix A for a discussion of the scope
and methodology and prior coverage, and see Appendix B for the congressional request.

Background
6B




In 2005, the Combined Security Transition Command-Afghanistan (CSTC-A) officially
assumed the lead role on behalf of the U.S. Government in the reformation of the ANP.
CSTC-A is under the control of the United States Central Command (CENTCOM).
Under CSTC-A’s operational control is Task Force Phoenix, responsible for training,
mentoring, and advising the Afghan National Army and the ANP. The International
Police Coordination Board was formed in 2007 in an effort to improve international
coordination of ANP training. The U.S., the United Nations, and the European Union
agreed with the Afghan government to introduce common standards to coordinate the
efforts of all countries contributing to reforming the Ministry of Interior (MOI) and the
ANP. The MOI controls the ANP. The goal is to develop the Afghan security forces to
protect the local population and provide a stable rule of law.

CSTC-A’s role is to plan, program, and implement structural, organizational,
institutional, and management reforms of the Afghanistan National Security Forces
(ANSFs). Mission success for CSTC-A is defined as fielding an ANSF, which includes
the ANP, that is professional, literate, ethnically diverse, tactically competent, and
capable of providing security throughout Afghanistan. The purpose of these ANSFs is to
develop a stable Afghanistan, strengthen the rule of law, and deter and defeat terrorism
within Afghanistan’s borders. According to the Council on Foreign Relations,

                “Senior U.S. military officials have said America’s exit strategy is tied
                to Afghanistan’s ability to provide its own security. The North Atlantic
                Treaty Organization and coalition partners have embraced the concept
                that improving the capability of Afghan forces is the quickest way to
                exit.” 1
                      FF




1
 Greg Bruno, “Afghanistan’s National Security Forces,” Council on Foreign Relations Backgrounder,
New York, April 16, 2009.



                                                   1
During the spring of 2007, the Joint Coordination and Monitoring Board2 approved        FF




increasing the ANP staffing levels to 82,000. As of March 15, 2009, more than
80,000 positions, 96 percent of their authorized staffing levels, have been filled. The
MOI expects to fill the remaining 2,000 positions by December 2009.

The ANP consists of the following different police organizations:

        Uniformed Police,
        Border Police,
        Civil Order Police,
        Counter Narcotics Police,
        Criminal Investigation Police, and
        Counter Terrorism Police.

The Uniformed Police are the single largest police element with more than
40,000 positions. They are responsible for general law enforcement, public safety, and
internal security throughout the provinces and districts of Afghanistan. The Afghan
Border Police, with an authorized strength of 17,000, are responsible for patrolling
Afghanistan’s borders, conducting counter-smuggling operations, and managing
immigration.

The Civil Order Police are responsible for responding to civil disturbances in large urban
areas and patrolling in high-threat areas. In addition, the Civil Order Police also
temporarily replace entire Uniformed Police districts while they attend Focused District
Development training. Focused District Development is the framework for implementing
the ANP training program. It is used to organize the training of the police force that will
serve each district and evaluate their effectiveness.

The other three ANP organizations are smaller and have more specialized missions. The
Counter Narcotics Police are responsible for the elimination of the production and
trafficking of illicit drugs. The Criminal Investigation Division Police investigate a wide-
range of criminal offenses. The Counter Terrorism Police are responsible for conducting
counter-insurgency operations.

Presidential Decision Directive 71, “Strengthening Criminal Justice Systems in Support
of Peace Operations,” February 24, 2000, directed DOS to establish a new program that
would train civilian police for international peacekeeping missions around the world. In
response to this directive, the DOS Office of Acquisition Management awarded the
Civilian Police Program (CIVPOL) contract in February 2004.



2
  The Joint Coordination and Monitoring Board consists of representatives from the Afghan Government
and the International Community and coordinates the implementation of the Afghanistan Compact, which
defines the principles of political cooperation for the period of 2006 to 2011. The Joint Coordination and
Monitoring Board provides direction to address issues of coordination, implementation, and financing for
the benchmarks and timelines of the Compact and reports on the implementation.


                                                     2
According to the CIVPOL contract (contract number S-LMAQM-04-C-0030), the
contractor is responsible for:

     providing a cadre of up to 2,000 experienced law enforcement personnel available
      to serve in civilian peacekeeping missions overseas;
     providing pre-deployment and deployment support; including contract program
      management, uniforms, and equipment;
     arranging transportation for basic, in-service, and specialized training programs
      developed by the Government for the cadre of law enforcement personnel;
     maintaining a database for U.S. contributions to a particular international
      organization and creating additional databases, as required, to manage records
      relating to the cadre of law enforcement personnel; and
     providing procurement services for equipment for foreign police and construction
      services to support foreign police.

DOS issued two contract task orders under the CIVPOL contract to support the ANP
training program. These two task orders directed the contractor to provide personnel and
life support for the ANP training program including:

      qualified international civilian police advisors,
      life support services,
      security services, and
      communication support services.

These two task orders are valued in excess of $1 billion and expire on January 31, 2010.

Prior to FY 2005, international donors financed the bulk of the Afghan budget through
the Law and Order Trust Fund for Afghanistan, administered by the United Nations
Development Program. The U.S. contribution to that fund was $20 million in FY 2004,
$40 million in FY 2005, and $9.5 million in FY 2006. In addition to police salaries, trust
fund contributions pay for nonlethal equipment, facilities, recruitment, training, and
institutional development.

Since FY 2005, the U.S. has appropriated approximately $15.3 billion for the DOD-
managed Afghanistan Security Forces Fund. Since FY 2006, DOD transferred
$1.04 billion of these funds to the DOS Bureau of International Narcotics and Law
Enforcement Affairs (INL) to support the ANP Training Program.

Since 2006, DOS and DOD have implemented three Memoranda of Agreement (MOAs)
regarding the oversight of the ANP Training Program. Under these MOAs, DOS
accepted responsibility for procuring services related to the ANP Training Program,
managing and reporting on the ASF funds transferred from DOD, and overseeing the
contract and ensuring quality contractor performance.




                                             3
DOS agreed to perform the following specific tasks:

           receive funds from DOD and execute the program within those funding limits;
           continue to implement the program and oversee the contracts to provide adequate
            ANP training to meet the requirements identified by CSTC-A and coordinated
            with DOS;
           designate one or more in-country contracting officer’s representatives (I-CORs) to
            provide direct contractor oversight and quality assurance to the contracting
            officer’s representative (COR);
           administer funds in accordance with applicable laws and regulations and keep
            complete records of the use of funds and track items and services through delivery
            to trainees;
           ensure the Chief of Mission and CSTC-A Commander are fully informed of all
            activities and operations, including results of monitoring and reporting; and
           report to the DOD Financial Officer that the funds were expended for the
            purposes for which they were provided and return excess funds to DOD upon
            conclusion of its (DOS) responsibilities.

Review of Internal Controls
7B




DOS Office of Inspector General Audit Manual, chapter 8, April 2009, outlines guidance
from the Office of Management and Budget Circular A-123, “Management’s
Responsibility for Internal Control,” which defines management’s responsibility for
internal controls in Federal agencies. The Office of Management and Budget
Circular A-123 provides guidance to Federal managers on improving the accountability
and effectiveness of Federal programs and operations by establishing, assessing,
correcting, and reporting on internal controls. It also requires a strengthened process for
conducting management’s assessment of the effectiveness of internal controls over
financial reporting based on widely recognized internal control standards. We identified
internal control weaknesses for DOS. DOS did not have the following internal controls
for contract administration and oversight:

           INL did not conduct management assessment visits, and
           COR and I-CORs did not always match goods to receiving reports, maintain
            adequate oversight of Government-furnished property, or maintain complete
            contract files.

     Implementing recommendations in Findings B and C will improve INL contract and
     administration procedures. We will provide a copy of this report to the senior official
     responsible for internal controls in INL.




                                                  4
Finding A. National Strategy
The DOS CIVPOL contract does not meet DOD’s needs in developing the ANP to
provide security in countering the growing insurgency in Afghanistan because the current
contract arrangement does not allow DOD to make rapid changes in ANP training as the
security situation in Afghanistan changes. As a result, the ANP lacks the necessary skills
to combat the growing violence in Afghanistan and to provide a more stable and secure
environment for Afghanistan citizens.

Security Situation
8B




DOD entered into an agreement with DOS to provide funding on an existing contract for
civilian police advisors to train and mentor ANP in 2006. At that time, the security
situation in Afghanistan was more stable and suitable for a civilian police force whose
sole mission is to enforce the rule of law. This contributed to the decision to use the
existing CIVPOL contract with the contractor to train, mentor, and equip elements of the
Afghanistan MOI, which includes the ANP. Since that time, the security situation in
Afghanistan has changed significantly as the insurgency has grown, and according to a
CSTC-A senior official, the current CIVPOL contract no longer meets DOD needs. The
ANP must now focus not only on enforcing laws among the general public, but also on
combating a growing insurgency.

     ANP average monthly death rates for officers, non-commissioned officers, and patrolmen
     have steadily increased in the last 4 years, from 24 in 2006 to 123 in 2009. As the
     insurgency threats escalate, the need for additional ANP personnel with enhanced combat
     skills increases. This results in a requirement for increased training capacity and more
     police mentor teams to develop the new ANP forces. In addition, as the insurgent tactics
     evolve, the ANP members need to learn additional skills to protect themselves and
     preserve security for the citizens of Afghanistan.

     The Afghanistan MOI personnel that we interviewed stated that the contractor has made
     progress in training ANP. However, many challenges impede the progress, such as low
     literacy rates, deceptive recruiting tactics, desertions, and corruption among ANP.

     According to CSTC-A Training Command personnel, in June 2009, the Joint
     Coordination and Monitoring Board agreed to increase the number of ANP forces from
     86,800 to 96,800. The Chief of Mission stated that despite excellent coordination
     between the U.S. Embassy and CSTC-A, the lack of a single, unified chain of command
     has sometimes created confusion and unnecessary delays in enhancing the program.
     According to CSTC-A senior officials, to effectively train and mentor the new ANP
     officers and soldiers, DOD needs the flexibility to rapidly respond to the security
     environment and be able to direct the contractor to construct new training facilities to
     accommodate the increases in ANP forces, develop a new security-focused curriculum,
     and mentor ANP members in combat tactics. Under the current contract arrangement,
     DOD must coordinate any changes through INL, which causes delays in implementation.
     For example, the current MOA between DOS and DOD states that DOD must provide


                                                5
updated training requirements 120 days in advance; however, according to INL personnel
the process actually requires 6 months to implement.

According to the contractor security reports, during 2006, hostile activities were
primarily in the south and southeast portions of Afghanistan, and travel was unrestricted
in most of the country. In 2007, hostile activities spread west and north, attacks on non-
military targets increased, civilian death tolls rose, and travel restrictions became
common in the south and east. Hostile incidents spread north in 2008. Kabul was
encircled, hostilities targeting non-government organizations and international aid groups
increased, supply and aid convoys were frequent targets, and deaths among coalition
forces and civilians were at their highest. Additionally, ANP deaths have also increased
each year. See Figure 1 below.

               Figure 1. Average Monthly Afghan National Police Deaths


  140


  120

  100


   80
                                                                                        100
   60

                                                                 66
   40

   20                                    21
                  16
                                                                                         23
                  8                      11                      13
    0
                2006                    2007                    2008                   2009

                                          Officer/NCO          Patrolmen

Note: Averages are based on monthly casualty statistics provided by the Afghanistan Ministry of Interior.

Because of these increases in violence and the rising death rates among ANP, CSTC-A
leadership stated that they feel the existing curriculum is not the best method for
developing the ANP to achieve the emerging national strategy in Afghanistan. Instead,
CSTC-A stated they believe the focus of ANP training should be enhanced to include
more counterinsurgency and tactical skills training. This more resembles military
training than civilian police force training. In March 2009, the President announced a
comprehensive new strategy for Afghanistan, which included the emphasis on training
and increasing the size of Afghan security forces.




                                                    6
Base Contract
9B




The current CIVPOL contract is ambiguous and because DOS is the contracting agency
DOD cannot direct the contracted advisors and mentors and Afghan trainers as needs
change. According to a CSTC-A senior official, DOD must communicate changing
requirements through INL and wait for changes to be implemented. The contract task
orders simply require the contractor to provide personnel, life support, and
communications. The current task orders do not provide any specific information
regarding what type of training is required or any measurement of acceptability.
Additionally, the current contract does not include any measurement of contractor
performance. Therefore, a new contract has been proposed. The proposed contract,
which DOD will manage, should clearly specify training requirements. Additionally, the
proposed contract and task orders should clearly state that the contractor must fulfill these
specified training requirements.

Memorandum of Agreement
10B




INL and INL/Narcotics Affairs Section-Kabul (NAS-K) administer the CIVPOL contract
in coordination with overall direction from CSTC-A. The current MOA between DOS
and DOD states that the Commander, CSTC-A, determines overall program requirements
for developing the ANP, executes the program, and allocates funds; however, DOD does
not have authority to direct the CIVPOL contract. This lack of contractual authority has
restricted the ability of CSTC-A to rapidly modify ANP training to respond to the rising
insurgency.

Contract Requirements
1B




CSTC-A develops the DOD requirements memoranda for INL; however, the program
requirements documents do not stipulate how the ANP are to be trained or the desired
outcome. The requirements memoranda we reviewed for December 2008 and January
2009 request that INL maintain current levels of support at the DOS-operated Regional
Training Centers (RTCs) and provincial and sustainment sites throughout Afghanistan.
The memoranda also specify the number of mentors and the short-term continuation of
the program of instruction development. CSTC-A requested that the training capacity be
expanded at two RTCs and an increase in intelligence mentors. Additionally, CSTC-A
requested in-processing teams at the RTCs with the capability to deploy to sustainment
sites and support Mobile Training Teams and provide Trauma Assistance Personnel
Training. CSTC-A also requested further clarification and justification for the Women’s
Police Corps, INL Flight Support (Air Wing), and the Family Response Unit. Although
DOD requirements memoranda include the levels of mentor support to accomplish ANP
training, they do not provide any specifics regarding how ANP are to be trained.

CSTC-A uses capabilities milestones as a method to describe ANP progress in achieving
a level of self-sustaining readiness. The capability milestones are:

         Capabilities Milestone 1: Police element is fully capable of conducting law
          enforcement operations un-aided (without mentors), has at least 85 percent of
          equipment and personnel, and is self-sustaining;


                                              7
         Capabilities Milestone 2: Police element is capable of conducting law
          enforcement; has 70-84 percent of equipment and personnel, still requires mentor
          support, but is not self-sustaining;
         Capabilities Milestone 3: Police element has presence in its geographic location,
          is partially capable of conducting law enforcement with coalition support, and has
          50-69 percent of equipment and personnel; and
         Capabilities Milestone 4: Police element is formed, but incapable of conducting
          law enforcement operations, and has less than 50 percent of equipment and/or
          personnel.

Of 64 districts that CSTC-A evaluated as of August 2009, 11 met Capabilities
Milestone 1; 21 met Capabilities Milestone 2; 27 met Capabilities Milestone 3; and
5 remained at Capabilities Milestone 4. These districts did not achieve CSTC-A
capabilities milestone projections, which were that ANP should reach Capabilities
Milestone 2 by 2009.

Contract Action Delays
12B




According to CSTC-A leadership, the INL contracting process is slow and cumbersome,
which hampers the ability of DOD and the ANP to quickly respond to the rapidly
changing security environment in Afghanistan. CSTC-A leadership stated that using
DOS as the contracting agency is no longer the most efficient method to address the
changing security environment in Afghanistan. In 2006, when the security environment
in Afghanistan was more stable, DOD decided to use the existing CIVPOL contract to
implement the ANP training program. However, the current operating environment
requires a different approach, and the ANP training program that is in place does not
provide the ANP with the necessary skills to successfully fight the insurgency, and
therefore, hampers the ability of DOD to fulfill its role in the emerging national strategy.
Although both organizations, DOS and CSTC-A, have similar long-term goals for the
ANP, DOS is focused on training the police to be an effective civilian police force after
security in Afghanistan has stabilized. DOD is focused on survival and tactical training
of ANP to counter the growing insurgency. CSTC-A officials stated that they believe
that if DOD has contractual authority, and is not required to coordinate program changes
through another agency, program requirements can be implemented faster. In an ever-
changing environment, efficiency is necessary in order to rapidly respond to the current,
more volatile security situation. The training that CSTC-A will assume will be based on
survivability and tactical maneuvering, while INL will continue training the ANP in
traditional community policing tactics.

Proposed Contract Changes
13B




The Chief of Mission and Commander, International Security Assistance Forces,
recommended the transfer of responsibility for implementation of basic Afghan police
training and field mentoring to DOD. Specifically, they recommended that CSTC-A
assume contractual responsibility for the primary ANP training program, which includes
RTCs, basic ANP training, mentoring within the MOI, and CSTC-A’s police mentor
teams embedded in ANP units in districts throughout Afghanistan.



                                              8
Currently, ANP training is conducted by Afghan experienced police forces with oversight
by the contractor’s mentors and advisors. Although the need for the ANP to increase its
capability to effectively respond to the increased insurgent activity is critical for the
security of Afghanistan, the need to develop a competent and effective civilian police
force remains. The Embassy’s country team and CSTC-A agree that INL should revert to
its traditional police training role to support development of civilian police through
training in advanced leadership, criminal investigation, and professional development.
Dividing the ANP training and mentoring responsibilities between DOD (for basic
training) and INL (for advanced training) should result in a stronger, more effective ANP
force. This will provide the citizens of Afghanistan with an ANP force that is capable of
adapting to and surviving the changing security threats and is capable of performing
advanced civilian police duties.

Management Actions
14B




During our fieldwork in Afghanistan, we learned of a joint proposal between DOS and
DOD for DOD to assume responsibility for the basic ANP training and field mentoring
and INL to retain responsibility for advanced ANP training. To assist the transition from
INL-Kabul to CSTC-A and ensure improved communication between the two
organizations, we issued a memorandum to DOS and DOD recommending that they form
a transition oversight committee to manage the transition of Government property,
logistics, contracting, information technology, curriculum, resource management, and
programs of instruction. For details, see Appendix D for the memorandum and
Appendix E for management comments on the memorandum.

Recommendations, Management Comments, and Our
15B




Response
A. We recommend the Commanding General, Combined Security Transition
Command-Afghanistan:

   1. Clearly define the requirements for the Afghan National Police training
program.

   2. Establish contractor performance standards that will meet DOD’s
requirements for training and mentoring the Afghan National Police.


Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, responding for the Commanding General, agreed and
the comments included a detailed description of the requirements for the Afghan National
Police training program. The Deputy Commanding General also included the goals of
the Afghan Police Training program to simultaneously reform and expand the Afghan
National Police; provide resources to train and reform police and execute the force
generation of new police; increase recruiting, improve retention, and reduce attrition; and


                                            9
improve leadership and dismiss corrupt police officials. The Deputy Commanding
General stated that he has developed performance standards, with input from contract
bidders, to include measures of performance, and that measures of effectiveness are being
incorporated into the Quality Assurance Surveillance Plan.

Our Response
The Deputy Commanding General, CSTC-A, comments were responsive, and the actions
meet the intent of the recommendations.




                                           10
Finding B. Contractor Oversight
DOS contracting officials and CORs did not conduct adequate surveillance for two task
orders in excess of $1 billion. Specifically, the COR and I-CORs did not:

         maintain adequate oversight of Government-furnished property,
         maintain contract files as required by the Federal Acquisition Regulation (FAR),
          or
         always match goods to receiving reports.

These conditions occurred because contracting officials did not adequately staff I-CORs
for ANP task orders and did not prepare a Quality Assurance Surveillance Plan (QASP)
for one of the two ANP task orders. As a result, DOS personnel provided no assurance to
the contracting officer that the Government received all of the goods and services
procured by the contractor or that DOS received the best value when contracting for
services. In addition, the COR inappropriately approved contractor invoices for payment,
as discussed in Finding C.

Contracting Officer’s Representative Assignment
16B




Minimal Government oversight of the ANP task orders increased the risk of fraud and
waste of Government funds. The COR is responsible for overseeing contractor
performance and determining whether the contractor accomplishes the technical and
financial aspects of the contract. The COR and I-CORs are responsible for monitoring
and inspecting the contractor’s progress and performance, receiving deliverables,
approving invoices, notifying the contracting officer of deficiencies, performing property
administrator duties for Government-furnished property, performing acceptance tests of
goods and services, and maintaining contract files.

COR and I-COR Assignment
39B




Prior to our site visit to Afghanistan, we requested that Afghanistan, Iraq, and Jordan
Support (AIJS) officials and the contracting officer provide a list of I-CORs serving in
Afghanistan and their dates of service since the contracting officer did not assign an
administrative contracting officer. The contracting officer provided an abbreviated list of
CORs and I-CORs and stated that the COR could provide information about service in
Afghanistan; however, the COR was unable to provide that information. According to
the COR and I-CORs, I-CORs are frequently rotated in and out of Afghanistan but no
record was maintained by the contracting officer to document dates of service in
Afghanistan.

In addition, the contracting officer provided delegation letters for I-CORs that included
assignments of authority for personnel that the COR, I-CORs, and contracting officer
could not identify as working as an I-COR further demonstrating the lack of control over
COR and I-COR staffing. The contracting officer should immediately terminate the
delegation of I-COR authority of all inactive or reassigned I-CORs to provide an accurate
count of existing I-CORs. Without terminating inactive I-CORs, the contracting officer


                                             11
maintains a roster of I-CORs that misrepresents the number available to oversee the
contractor and includes personnel who should not have the authority to represent the
contracting officer. The contracting officer issued one COR and seven I-COR delegation
letters3 to monitor the ANP task orders. Of the seven active I-COR delegations, one does
              FF




not work on ANP task orders, two cannot monitor task order S-LMAQM-08-F-5375 (task
order 5375), one works only half of the year, three were located in the U.S., and only
three were located in Afghanistan. Only one I-COR possessed authority to oversee task
order 5375 prior to June 2009 despite nearly $325 million obligated prior to June. The
contracting officer should be able to identify the assignments and locations of CORs and
I-CORs assigned to task orders, terminate assignments of individuals no longer working
on ANP task orders, and increase the number of I-CORs to adequately perform contract
surveillance.

Civilian Police Program Master Contract
40B




The contracting officer assigned one COR and five I-CORs to perform oversight of seven
task order contracts valued at $1.6 billion. These task orders are executed under three
indefinite-delivery, indefinite-quantity master contracts awarded to three different
contractors. Each task order contract supports different disciplines under the CIVPOL
master contract with two task orders, S-LMAQM-05-F-4305 (task order 4305) and task
order 5375, executing the ANP program. Examples of the programs executed by the task
orders include the ANP, Poppy Eradication, Corrections Sector Support, and Justice
Sector Support. Each program has its own statement of work (SOW) with the ANP
program possessing 18 different SOWs that state the requirements of the program. The
COR and I-COR responsibilities for all seven task orders were the same as outlined in
their delegation letters. These duties included preparing purchase requests, defining
project requirements, performing inspections, accepting work for the Government,
resolving technical issues, reporting costs not appropriately charged to the contract,
validating all vendor invoices, and maintaining an inventory of Government-furnished
property.

ANP Task Orders
41B




On August 15, 2005, the contracting officer for INL awarded task order 4305 for the
ANP. However, due to the size and complexity of the contract, contract oversight was
grossly understaffed with one COR prior to July 2006 despite obligating more than
$232 million. During 2006, the contracting officer delegated administrative authority to
one COR and two I-CORs, however, during our site visit, we were unable to find any
evidence of surveillance by the two I-CORs. By the beginning of 2008 nearly
$675 million was obligated without any evidence of an I-COR functioning in
Afghanistan. From February 2008 to July 2009, the ANP contract was increased by
another $598 million and task order 5375, as well as multiple SOWs, was added to the
contract. In 2008, another I-COR was assigned authority to the ANP task orders



3
       According to FAR 42.202, “Assignment of Contract Administration,” contracting officers may delegate
      contract administration authority. The delegation authorizes the appointee to perform specified tasks under
      an identified contract.


                                                          12
followed by four more I-CORs as late as June 2009. In addition, these I-CORs were
assigned to five other Civilian Police Program task orders. The ANP and Civilian Police
Program task orders have a total value of $1.6 billion.

Despite the increased number of I-CORs assigned to the ANP task orders, only three
I-CORs were in Afghanistan during our site visit while two I-CORs and the COR were
stateside at headquarters. The in-country designation attached to the I-COR is misleading
because the majority of I-CORs do not perform their functions in Afghanistan. To
adequately fulfill the various roles and responsibilities required of the COR and I-COR,
more CORs and I-CORs are required in Afghanistan to perform contractor oversight. For
example, performing product and service inspection, accepting work on behalf of the
Government, and maintaining inventory lists of Government-furnished property require a
physical presence at the place of performance.

      According to the I-CORs, they do not have enough staff to sufficiently monitor contractor
      performance. Due to the number of task orders under the I-CORs purview, the I-CORs
      stated they can only spend approximately 20 percent of their time on task orders 4305
      and 5375. According to the I-CORs, most of that time is spent reviewing contractor
      purchase order requests and receipt of items in excess of $3,000. Therefore, the I-CORs
      did not have time to perform other required tasks, such as performing quality assurance
      and overseeing Government-furnished property as required by their letters of delegation.
      According to INL officials, they are billeted for 7 I-CORs however, they have not
      reached their maximum capacity. To ensure adequate COR and I-COR staffing, the
      contracting officer should reassess the staffing needs of the ANP task orders and
      designate the appropriate number of CORs and I-CORs. In addition, the contracting
      officer should ensure that I-CORs perform their functions in Afghanistan as designated
      by their “in-country” status.

Quality Assurance Surveillance Plan
17B




DOS contracting and INL program officials did not develop a QASP for task order 4305.
A QASP describes the procedures the Government will use to ensure that the actual
performance of a contractor meets the requirements of the SOW. According to FAR
Subpart 46.4, “Government Contract Quality Assurance,” March 2005, a QASP should
be developed in conjunction with the performance work statement. FAR Subpart 46.4
also states that the QASP should include a description of all work requiring surveillance,
location of inspections, and the method for accepting the goods or services.

Task order 5375 included a QASP but the QASP was never updated to include
requirements established in ten SOWs after it was implemented. Because the QASP was
not updated with the additional SOWs, the QASP did not include all requirements in task
order 5375. In addition, the QASP specifically identifies four functional areas requiring
surveillance including food services, equipment accountability, security, and advisor
appointment. For each functional area, a quality assurance evaluator was supposed to
establish a surveillance program outlining the frequency and methods for observing or
monitoring services. However, the I-CORs in Afghanistan acknowledged that a
surveillance program was never created to oversee the four functional areas. As a result,


                                                 13
contract surveillance may not be conducted consistently among a rotational staff of
I-CORs.

A defined QASP created prior to the start of contract performance and updated with
additional requirements can eliminate gaps in contract surveillance and ensure that goods
and services provided by contractors are in accordance with the terms of the contract.
Without a proper QASP, contracting officials have no standards for determining whether
goods or services provided by contractors comply with contractual requirements. ANP
contracting officials should develop a QASP to go along with the SOW for each task
order before contract performance begins.

Government-Furnished Property
18B




Neither DOS nor the contractor maintained a current inventory list of Government-
furnished property. During our site visits to three ANP training facilities, we were unable
to locate over half of the items of a random sample of property generated by the
contractor. The FAR 52.245-1, “Government Property,” requires a contractor to create
and maintain an inventory listing of all Government-furnished and contractor-acquired
property in its possession. The inventory must be complete, current, and auditable.
Furthermore, the FAR requires the maintenance of specific data, such as product
description, manufacturer, model number, unique item identifier (for example, serial
number), and unit acquisition cost.

      Procurement Information Bulletin 2007-21, “Contractor Held Government Property
      Requirements,” June 27, 2007, specifies responsibilities for the property administrator,
      including managing all Government-furnished property and contractor-acquired property
      under the contract. These responsibilities include determining whether property should
      be provided to the contractor; determining the method of and providing directions on the
      disposition of property; ensuring contractor compliance with contract requirements for
      property, including conducting all required inventories; and properly identifying all
      relevant contracts for all relevant property involved. The delegation of authority for the
      property administrator provides additional specifics, including monitoring the
      contractor’s management of and quarterly and annual reporting on Government-furnished
      and contractor-acquired property, ensuring that the contractor conducts all required
      inventories, and reviewing inventory lists and reports maintained by the contractor to
      verify that they contain the basic information required by the FAR. This authority was
      delegated to the COR and the ICORs assigned to task orders 4305 and 5375.

      During site visits to three ANP training facilities, we verified only 34 items from a
      random sample of 123 items from three strata (vehicles, sensitive items [weapons], and
      electronics). We selected the sample from the contractor’s property management system
      the day before the first inventory check. We considered the items verified if the ANP site
      coordinators could identify the location of the Government-furnished property or provide
      supporting documentation to substantiate the item’s existence.

      During our site visit to the Kandahar training center, we were unable to locate nine
      sensitive items including pistols, rifles, and scopes at the training site provided on the


                                                    14
inventory list. The site coordinator stated that the property assignments for sensitive
items were maintained at the contractor’s headquarters in Kabul. At the contractor’s
headquarters in Kabul, we located or viewed documentation showing that the weapons
were signed out by contractor personnel. However, only two other items of the
remaining 89 non-sensitive items could be located. The site coordinator stated that the
list was inaccurate and out of date but the list was generated by the contractor’s logistics
coordinator the evening prior to the site visit.

During our site visits to Kandahar, Bamyan, and Herat; the contractors stated that CORs
and I-CORs did not conduct regular site visits and never conducted an inventory of
Government-furnished property. After a natural disaster occurred at the Kandahar ANP
facility that destroyed substantial amounts of Government-furnished property, I-CORs
never performed an inventory to assess the extent of destroyed property. As a result, lost,
damaged, and destroyed items remained on the property book until August 2009 when
the contractor initiated the process with the I-CORs of removing these items from the
Government-furnished property list.

      Inaccurate inventories resulted from minimal oversight of Government-furnished
      property and indicate a deficiency in the internal controls of both the contractor and INL.
      I-CORs should have visited Kandahar regularly and discovered the destroyed equipment
      and required the contractor to report missing or destroyed equipment immediately,
      consistent with the requirements in the SOW. The need for complete and accurate
      accounting for Government-furnished property held by the contractor is critical, as the
      ANP task orders were scheduled to terminate in January 2010, resulting in contractor-
      held, Government-owned property to be returned to the Government. Without accurate
      inventory lists, the I-COR has no means of determining whether all Government-owned
      property has been properly accounted for.

Contract Files
19B




I-CORs did not maintain the necessary documentation that is required in contract files.
The DOS Foreign Affairs Handbook (FAH) states that CORs are expected to maintain a
file documenting significant actions and containing copies of trip reports,
correspondence, and reports of deliverables received under the contract. The purpose of
the file is to provide easy access to technical information and work progress and to ease
transition to a new COR. The FAH lists items to be maintained in the files, including the
complete procurement request package, the solicitation, the technical and cost proposals
submitted by the contractor, the contract and all modifications, progress reports,
correspondence and telephone synopses to and from the contractor, documentation of the
acceptability or unacceptability of deliverables, documentation of site visits, and copies
of invoices.

During our review of the I-COR contract files for task orders 4305 and 5375, we were
unable to locate SOWs, copies of invoices, correspondence with the contractor,
documentation of acceptability of goods and services, and documentation of site visit
results. The I-CORs stated that they maintain COR files on their individual office
computer or personal e-mail files; however, we were not shown any evidence other than


                                                  15
some correspondence with the contractor. These files on individual computers are not
accessible to other I-CORs.

COR files were particularly important in the field, where I-CORs were rotated frequently
and were entitled to 2 months each year away from post for rest and relaxation purposes.
Rapidly changing SOWs accompanied with escalating contract costs place a premium on
oversight and smooth transition among a constant rotation of I-CORs. However, because
the COR files are not readily available to others and may not be complete, incoming or
acting I-CORs may not have the information and institutional knowledge they need to
properly administer and monitor the contract.

Reviewing Contractor Invoices
20B




CIVPOL contracting officers and their CORs did not review 100 percent of contractor
bills to ensure the billings always corresponded to the actual goods and services received.
See Finding C for a detailed discussion on the review of contractor bills.

Recommendations, Management Comments, and Our
21B




Response
B.1. We recommend the Assistant Secretary of State for the Bureau of
International Narcotics and Law Enforcement Affairs and the Commanding
General, Combined Security Transition Command-Afghanistan, ensure that the
contracting officer for the Civilian Police Program contract perform a complete
inventory of Government-furnished property under task orders 4305 and 5375 and
reconcile the inventory count to the Government-furnished property book
maintained by the contractor.

Assistant Secretary of State for the Bureau of International
Narcotics and Law Enforcement Affairs Comments
The Acting Assistant Secretary of State, INL, generally agreed, stating that INL takes
seriously the need to account for Government-purchased property and that INL has
completed an inventory of property for the CIVPOL task orders.

Our Response
The Acting Assistant Secretary of State’s comments were responsive, and the actions
meet the intent of the recommendation.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, responding for the Commanding General, agreed and
stated that CSTC-A formed a working group with INL, Counter-Narcoterrorism
Technology Program Office, and the Defense Contract Management Agency (DCMA)
that led to the successful exchange of critical information and data necessary for contract
transition among agencies. The Deputy Commanding General also stated that INL and



                                            16
the contractor conducted an inventory of more than 91,000 pieces of property to ensure
an easy transition of property from INL to CSTC-A.

Our Response
The Deputy Commanding General’s comments were responsive, and the actions meet the
intent of the recommendation.

B.2. We recommend the Assistant Secretary of State for the Bureau of
International Narcotics and Law Enforcement Affairs:

       a. Ensure that the contracting officer for the Civilian Police Program
contract strengthens existing internal controls over contract administration,
oversight, and financial reporting to comply with Foreign Affairs Handbook
requirements.

Assistant Secretary of State for the Bureau of International
Narcotics and Law Enforcement Affairs Comments
The Acting Assistant Secretary of State, INL, generally agreed and stated that INL
currently has four I-CORs at post and is preparing three I-CORs for deployment. In
addition, the Acting Assistant Secretary said that INL is expanding the number of I-CORs
at post from seven to eleven within the next several months to enhance the contract
oversight capability. The Acting Assistant Secretary added that INL plans to publish I-
COR operating procedures and guidelines to standardize their duties.

Our Response
The Acting Assistant Secretary of State’s comments were responsive. We believe that
increasing the number of I-CORs and publishing the I-COR operating procedures and
guidelines will result in improved control over contract administration, oversight, and
financial reporting to comply with the FAH.

       b. Ensure that the contracting officer for the Civilian Police Program
contract establishes and maintains contracting files that are complete and easily
accessible in accordance with the contracting officer delegation letters and the
Foreign Affairs Handbook.

Assistant Secretary of State for the Bureau of International
Narcotics and Law Enforcement Affairs Comments
The Acting Assistant Secretary of State, INL, generally agreed and stated that the COR
retains complete contract files in Washington D.C. where the COR is located. The
Acting Assistant Secretary also stated that INL intends to provide I-CORs with electronic
accessibility to contract files, including a SharePoint site for correspondence.

Our Response
The Acting Assistant Secretary of State for the Bureau of International Narcotics and
Law Enforcement Affairs comments were partially responsive. I-CORs are required to


                                           17
maintain contract files as delegated by their letters of assignment and the FAH. Contract
files need to be readily available to I-CORs in the field so they can respond accurately
and rapidly.

Electronic accessibility of contract files and a SharePoint site for correspondence is an
acceptable method of maintaining contract files; however, INL did not provide a
description of the timeframe to implement an electronic file sharing system. We request
that the Assistant Secretary of State for the Bureau of International Narcotics and Law
Enforcement Affairs provide additional comments in response to the final report that
specify a completion date for establishing an electronic file sharing system.

B.3. We recommend the Commanding General, Combined Security Transition
Command-Afghanistan, direct the contracting officer for the new DOD-managed
ANP training program to:

      a. Designate an administrative contracting officer in Afghanistan to
implement immediate changes and conduct contractor oversight.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, responding for the Commanding General agreed,
stating that CSTC-A will implement numerous oversight measures after the contract
transitions to CSTC-A. The Deputy Commanding General stated that the Assistant
Commanding General-Police Development will provide contract management oversight.
Contract management responsibilities will include providing a lead COR and 20 in-
country quality assurance representatives. Additionally, the Deputy Commanding
General stated that CSTC-A established military contract oversight for all advisors and
trainers at three levels—ministerial systems, institutional advisors/trainers, and regional
and fielded forces.

Our Response
The Deputy Commanding General’s comments were responsive, and the actions meet the
intent of the recommendation.

       b. Designate a full-time property administrator to oversee all Government-
furnished property for contracts supporting the Afghan National Police Program.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, responding for the Commanding General, agreed,
stating that the DCMA will provide property management oversight. In addition, the
Deputy Commanding General stated that DCMA will review the awarded contractor’s
property management system.




                                            18
Our Response
The Deputy Commanding General’s comments were responsive, and the actions meet the
intent of the recommendation.

       c. Develop a Quality Assurance Surveillance Plan that addresses high-risk
areas of the Afghan National Police training contract.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, responding for the Commanding General, agreed and
provided a flowchart of contract responsibility and an organizational structure of the
DCMA contract management and oversight process. The Deputy Commanding General
stated that the flowchart and organizational structures provide a top-level view of contract
management responsibilities for the ANP training program.

Our Response
The Deputy Commanding General’s comments were not responsive. The Deputy
Commanding General’s comments did not indicate that CSTC-A was going to develop a
QASP. According to FAR subpart 46.4, a QASP should be developed in conjunction
with the performance work statement. Accordingly, we request that the Commanding
General provide additional comments in response to the final report that provide greater
detail regarding the timing and drafting of a QASP.

       d. Establish and maintain contracting files that are complete and easily
accessible in accordance with the delegation letters and the Defense Federal
Acquisition Regulation Supplement.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, responding for the Commanding General, agreed and
provided a flowchart and an organizational structure of contract responsibility of the
DCMA contract management and oversight process. The Deputy Commanding General
stated that the organizational structures and flowcharts provide a top-level view of
contract management responsibilities for the ANP training program.

Our Response
The Deputy Commanding General’s comments were not responsive. The Deputy
Commanding General stated that contract management responsibilities will include
providing a lead COR and 20 in-country quality assurance representatives. He did not
state whether CORs would maintain individual contract files for each contract or task
order assigned as required by Defense Federal Acquisition Regulation
Supplement 201.602-2, “Procedures, Guidance, and Information.” Additionally, the
Deputy Commanding General did not state that CSTC-A would maintain the contract
documents in an electronic file sharing system, such as the Electronic Document Access
system, as required by Defense Federal Acquisition Regulation Supplement 204.2,


                                            19
“Procedures, Guidance, and Information,” to provide all COR and in-country quality
assurance representatives valuable contract information. We request that the
Commanding General provide additional comments in response to the final report that
provide details on the establishment and maintenance of contracting files.

        e. Evaluate and assign the appropriate number of in-country contracting
officer’s representatives to oversee the Afghan National Police program.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, responding for the Commanding General, agreed,
stating CSTC-A will implement numerous oversight measures after the contract
transitions to CSTC-A. The Deputy Commanding General stated that the Assistant
Commanding General-Police Development will provide contract management oversight.
Contract management responsibilities will include providing a lead COR and 20 in-
country quality assurance representatives. Additionally, the Deputy Commanding
General stated that a combined 184 COR and technical officer representatives will report
to the lead COR who will oversee all levels of the program. The Deputy Commanding
General concluded that military commanders will replace contractors at each training
facility to conduct contract oversight, as INL currently does.

Our Response
The Commanding General’s comments were responsive, and the actions meet the intent
of the recommendation.




                                           20
Finding C. Contractor Invoice Review
DOS personnel could not ensure that funds allocated by the DOD for the ANP program
were expended to meet DOD requirements in accordance with the MOA between the
DOS and DOD. This occurred because DOS did not follow internal control procedures
that established that I-CORs were to review contractor invoices to determine if the costs
were allowable, allocable, or reasonable prior to payment and validate deliverables. As a
result, DOS officials paid the contractor for goods and services that may not have been
allowable or reasonable under two of the task orders supporting the ANP contract.

Criteria
2B




The FAH, DOD Regulation 7000.14-R, “DOD Financial Management Regulation,”
(FMR), and FAR address the topics of reviewing invoices to ensure that costs are
allowable, allocable, and reasonable, and of reviewing contractor payments. Specifically,
the FAH states that contractors must periodically submit invoices to request payment.
The FMR provides details on contractor entitlement to payment on invoices and the
associated documentation requirements. In addition, the FAR states that expenses billed to
the Government are limited to costs that are allowable, 4 allocable, 5 and reasonable. 6 The
                                                                   FF   FF        FF   FF              FF   FF




Defense Contract Audit Agency (DCAA) Contract Audit Manual 7640.1, “Defense Contract
Audit Manual,” prescribes auditing policies and procedures and furnishes guidance in
auditing techniques for personnel engaged in the performance of the DCAA mission.7

Review of Contractor Invoices
23B




INL AIJS personnel did not conduct sufficient invoice reviews as required by their
delegation letters. These invoice reviews are necessary to determine whether the
contractor was entitled to payment for submitted invoices, or prepare and maintain the
supporting documents necessary to show contractor entitlement to payment. Specifically,
as discussed in Finding B, an I-COR confirmed that no QASP existed and management
assessment visits did not occur. Therefore, I-CORs did not conduct site visits to accept
or validate delivery of invoiced goods and services; unless the items were sensitive or of
a high-dollar value, such as night-vision goggles or armored vehicles. Instead, the
I-CORs relied on the contractor to accept delivery of inventory and maintain the
supporting documentation to show that goods were received or services were performed.
I-CORs did not use standardized procedures to review, deny, or approve contractor-



4
  A cost is allowable only when the cost is reasonable, allocable, and conforms to the terms of the contract
(FAR 31.201-2).
5
  A cost is allocable if it is (a) incurred specifically for the contract; (b) benefits both the contract and other
work, and can be distributed to the contract and other work in reasonable proportion to the benefits
received; or (c) necessary to the overall operation of the business, although a direct relationship to any
particular cost objective cannot be shown (FAR 31.201-4).
6
  A cost is reasonable if, in its nature and amount, does not exceed that which would be incurred by a
prudent person (FAR 31.201-3).
7
  DCAA’s mission is to perform services regarding contracts and subcontracts to all DOD components
responsible for procurement and contract administration.


                                                        21
submitted purchase order requests. In addition, the COR inappropriately approved
contractor invoices without assurance that the Government received what it paid for.

Supporting Documentation
42B




An I-COR stated that I-CORs were rarely provided and did not maintain copies of
contractor invoices. Instead, an I-COR stated that supporting documentation and
invoices were provided to and maintained by AIJS in Washington, D.C., even though
they were not accessible to I-CORs. Without invoices, I-CORs did not know what goods
were procured and could not accept delivery or review inventory. According to the FAH,
volume 14, handbook 2, “Contracting Officer’s Representative,” the COR must maintain
a copy of all invoices and vouchers and a payment register, indicating the balance of
funds remaining. Furthermore, without these necessary documents, we could not
determine if invoices approved for payment by the COR were allowable, allocable, or
reasonable within the contract scope. DOS plans to implement a web-based tool that will
provide I-CORs access to all contract documentation maintained by AIJS in Washington,
D.C.

The FAH, volume 14, handbook 2, also states that contractors must periodically submit
vouchers or invoices. The COR should review the vouchers or invoices to determine the
validity of the costs claimed and relate total expenditures to the progress of the contract.
This is particularly important under cost-reimbursement contracts, where a COR can gain
evidence of performance problems through examining the contractor’s vouchers.
However, vouchers alone do not provide sufficient information for tracking financial
progress. Therefore, the Government is entitled to ask the contractor for information that
is necessary to understand whether the charges billed are allowable, allocable, and
reasonable–the basic tests that the contractor’s costs must pass to be reimbursed. If it
appears from charges billed that the contractor may be spending more than is reasonably
necessary for certain parts of the work, the COR should contact the contractor for
additional explanation or substantiation for those costs.

Acceptance of Goods and Services
43B




The COR and the I-CORs did not have evidence to support that invoiced goods and
services were actually received for the ANP task orders we reviewed because, according
to an I-COR, I-CORs did not normally accept delivery of inventory or services; therefore,
I-CORs did not prepare and could not maintain receiving reports. The I-COR delegation
letters require them to perform inspections and reviews and accept contractor work. We
believe that the CSTC-A plan to adequately staff the contract oversight function, as
discussed in the management comments on Recommendation B.3.e, will improve the
acceptance of goods and services for the ANP training program.

Prior to August 2009, the contractor self procured, self accepted, and invoiced an
unlimited number of purchase requests, each of which totaled $3,000 or less. According
to I-CORs, until June 2009, I-CORs did not even review contractor purchase requests
below the $3,000 threshold unless the supply was sensitive, such as night-vision goggles.
An I-COR also stated that I-CORs were generally unaware of the items ordered by
contractors, and that I-CORs did not have any way to verify if the ordered item was


                                            22
delivered. The I-COR even acknowledged that it was possible that the Government was
being invoiced for equipment that could not be verified as ever having been received.

The FAH, volume 14, handbook 2, states that once acceptance8 is accomplished, the
                                                                        FF




contractor is excused from further performance and can no longer be held responsible for
unsatisfactory effort. According to I-CORs, the contractor was responsible for self
acceptance of goods and services other than sensitive goods and high-dollar value goods,
such as up-armored vehicles. Without checks and balances over the procuring, receiving,
and invoicing process, the contractor could potentially invoice the Government for goods
and services never received or that were unsatisfactory.

Purchase Order Requests
4B




According to an I-COR, I-CORs did not use standardized procedures to review, deny, or
approve contractor-submitted purchase order requests. Specifically, the contractor’s
Logistic Supervisor stated that the contractor had an established property management
system, which the contractor used to procure property, register property, and track in-
country distributions. According to the contractor’s Procurement Manager, the contractor
used the property management system to submit purchase order requests and the
associated supporting documentation for review by the I-CORs. None of the three
I-CORs located in Afghanistan during our site visit were able to use the contractor’s
property management system to deny or approve contractor purchase order requests. Of
the three, only one I-COR even had access to the contractor’s property management
system; however it was “view only access,” and the I-COR was never trained on the
system. Therefore, the I-CORs completed the review and denial or approval process of
purchase order requests outside the contractor’s property management system through
e-mail. Not using the contractor’s property management system increased the possibility
that the same purchase request(s) could be submitted and approved multiple times. We
believe that the CSTC-A plan to provide property management oversight and to
adequately staff the contract oversight function and, as discussed in the management
comments on Recommendation B.3.e, will improve the purchase order review process for
the ANP training program.

Invoice Review Process
45B




DOS personnel did not conduct sufficient invoice reviews to determine whether the
contractor was entitled to payment for submitted invoices. Specifically, AIJS personnel
were responsible for completing a high-level invoice review, which consisted of verifying
10 basic items, such as the vendor name, invoice number, and contract number. Even
though this review was in accordance with the Prompt Payment Act 9 the process did not
                                                                              FF




address whether contractor invoice costs were allowable, allocable, or reasonable.
According to a financial management advisor, financial management advisors did not
perform reviews for invoices of less than $3,000. The financial management advisors



8
  Acceptance means an authorized Government official acknowledges that goods and services received
conform to contract requirements.
9
  The Prompt Payment Act ensures that Federal agencies pay vendors in a timely manner.


                                                 23
performed invoice reviews only on invoices of more than $3,000, and therefore, did not
determine whether the contractor invoice costs were allowable, allocable, or reasonable
prior to payment.

      Both the contracting officer and the COR responsible for approving the contractor
      invoices recognized that the invoice reviews were not sufficient to determine whether
      invoice costs were allowable, allocable, or reasonable prior to payment. The contracting
      officer signed modification 17 to contract S-LMAQM-04-C-0030, which stated that all
      invoices were to be treated as provisional and subject to subsequent reviews, audits, and
      appropriate adjustments. Furthermore, the COR wrote a caveat on the invoices that he
      signed that referenced modification 17.

      AIJS also established a separate Invoice Reconciliation Team. The financial program
      management advisor stated that her team was reviewing 100 percent of approved invoices
      under contract S-LMAQM-04-C-0030. As of July 30, 2009, the Invoice Reconciliation
      Team had not reviewed invoices under task orders 4305 and 5375; however, the AIJS
      personnel emphasized that they had identified $322 million in invoices under contract
      S-LMAQM-04-C-0030 that were approved even though they were not allowable,
      allocable, or reasonable. Furthermore, the Invoice Reconciliation Team estimated that
      approximately 50 percent of the approved invoices had errors.

The Invoice Reconciliation Team will not review the invoices paid with ASF funds for
several years. A DCAA review of the invoices and public vouchers paid with these funds
will allow DOS to collect refunds during the funds’ availability periods.

Billing and Payment Entitlement
46B




The COR and I-CORs did not prepare or maintain supporting documents as evidence that
the payment of invoices was in accordance with established policy. Specifically, the
COR and I-CORs did not prepare or maintain receiving or inspection reports to document
contractor entitlement to invoice payments because the COR and I-CORs did not accept
delivery of goods and services. The COR and I-CORs also neglected to perform site
visits to validate the existence or completion of goods and services. Instead, the COR
accepted the contractor’s invoice as proof of supply delivery or service completion.
Therefore, the contractor’s approved invoice ended up serving as the Government’s
approval of goods or services accepted by the contractor. DCAA identified significant
internal control deficiencies in the contractor’s billing system.10

      FAR 31.2, “Contracts with Commercial Organizations,” August 17, 2007, states that
      expenses billed to the Government are limited to costs that are allowable, allocable, and
      reasonable. FMR volume 10, chapter 1, states that contractor invoice payments cannot be
      made without Government personnel determining entitlement to the payment. Further,




10
        Report on Audit of Billing System, Audit Report No. 03181-2009D11010001



                                                      24
receipt of a “proper” 11 invoice, proof of receipt, and acceptance, as well as the contract terms
                      FF   FF




and conditions, determine entitlement. According to FMR, volume 10, chapter 7, “Prompt
Payment Act,” July 2002, a disbursing office must be provided supporting documents as
evidence that the payment is proper. The supporting documents normally consist of a
contract, invoices from a contractor, and a receiving report completed by the offices
receiving the property or service. According to the FMR volume 10, chapter 8,
“Commercial Payment Vouchers and Supporting Documents,” May 2008, a contractor is
entitled to payment when the contracting officer issues a contract, prepares a receiving report,
and approves the invoice that a contractor submits for payment.

The Government has the right to “disallow” costs and not reimburse the contractor for
costs that are unreasonable in nature or amount. The right to exercise this power should
encourage the contractor to manage efficiently. When the contractor realizes that the
Government is not monitoring performance or watching costs, the likelihood of
unreasonable costs in invoicing will increase.

Under the MOA between DOS and DOD, DOS agreed to use the ASF funds provided by
DOD to provide support for the ANP training program. The weaknesses we identified in
the contractor invoice review process prevent DOS from ensuring that the funds were
expended in accordance with the MOA.

Recommendations, Management Comments, and Our
Response
Added, Deleted, and Renumbered Recommendations
As a result of management comments and additional audit work, we added
Recommendation C.2.a. and deleted draft Recommendation C.2.c. Draft
Recommendations C.2.a.-b. were renumbered as C.2.b.-c., respectively.

C.1. We recommend that the Director, Defense Contract Audit Agency:

        a. Include public vouchers submitted under task orders 4305 and 5375 of
the Afghanistan National Police Program indefinite-delivery, indefinite-quantity
contracts as part of its review of public vouchers in accordance with the procedures
identified in the Defense Contract Audit Agency Manual 7640.1, “Defense Contract
Audit Manual.”

Defense Contract Audit Agency Comments
The Assistant Director, DCAA, agreed, stating that DCAA should have been reviewing
the billings submitted to the DOS under task orders 4305 and 5375. However, DCAA
has not been provided the funding to perform the reviews of vouchers nor delegated the


11
  According to FAR 52.232-25(a)(3), “Prompt Payment,” October 2008, an invoice is considered proper
when it contains the name and address of the contractor, invoice date, contract number, description,
quantity, unit of measure, unit price, and price of goods delivered or services performed.


                                                  25
authority to approve interim vouchers submitted to the DOS paying office. Therefore,
the Assistant Director recommended that DCAA be delegated the authority to review and
authorize interim vouchers for reimbursement and be provided funding to accomplish
these tasks. The Assistant Director also stated that DCAA will include the follow-on
contract in its established pre-payment and post-payment sampling and review plans. As
a result, DCAA will review and provisionally approve interim vouchers submitted and
the progress or milestone payments.

Our Response
The Assistant Director’s comments were responsive, and the actions meet the intent of
this recommendation.

        b. Conduct an audit of the Afghanistan National Police Program to include
cost reimbursable line items.

Defense Contract Audit Agency Comments
The Assistant Director, DCAA, agreed, stating that DCAA met with DOS to explain the
audit services available. On September 25, 2007, DCAA submitted a proposal to perform
audit services, which was authorized on November 27, 2007, by DOS. However, on
October 24, 2008, the DOS contracting officer canceled the authorization; therefore,
DCAA did not perform the audits proposed. The Assistant Director also recommended
that DOS engage DCAA to perform post-award audits of initial task order award
proposals and subsequent task order modifications to ensure that the Government’s
interest is protected. However, the Assistant Director warned that because DOS did not
engage DCAA to perform real-time reviews, the results of DCAA’s audits will be
qualified.

Our Response
The Assistant Director’s comments were responsive, and the actions meet the intent of
this recommendation.

C.2. We recommend the Assistant Secretary of State for the Bureau of
International Narcotics and Law Enforcement Affairs:

       a. Request audit support from DCAA to determine the allowability,
allocability, and reasonableness of costs associated with task orders 4305 and 5375.

      b. Request refunds from the contractor for any costs determined by the
Defense Contract Audit Agency that were not allowable, allocable, or reasonable.

Assistant Secretary of State for the Bureau of International
Narcotics and Law Enforcement Affairs Comments
The Acting Assistant Secretary of State, INL, agreed and stated that INL requested
assistance from the DCAA in 2007, and DCAA’s work associated with the related task
orders started in March 2009. The Acting Assistant Secretary also stated that INL


                                          26
intends to take appropriate actions once DCAA presents its findings and
recommendations.

Our Response
The Acting Assistant Secretary of State’s comments were not responsive. In June 2009,
DCAA stated that they had not initiated audits on either task order 4305 or 5375; which
disputes INL’s claim that DCAA started work associated with task orders 4305 and 5375
in March 2009. DCAA’s comments on Recommendation C.1.b acknowledge that, on
September 25, 2007, DCAA submitted a proposal to perform audit services for DOS.
This proposal was authorized by DOS on November 27, 2007; however, on October 24,
2008, the DOS Contracting Officer canceled the authorization. As a result, DCAA did
not perform the audits proposed. Without completing the audits, DCAA could not
present findings or recommendations to DOS.

We recommend that the Assistant Secretary of State, INL, request audit support from
DCAA to determine the allowability, allocability, and reasonableness of costs associated
with task orders 4305 and 5375. INL should also follow up on the DCAA audit(s) and
take appropriate action based on DCAA’s findings and recommendations. Furthermore,
we request that the Assistant Secretary of State, INL, provide additional comments in
response to the final report, regarding the establishment of an action plan for engaging
DCAA audit support and the timeframe for meeting Recommendations C.2.a.-b.

       c. Ensure the in-country contracting officer’s representatives for the
Civilian Police Program contract accept delivery of inventory, prepare receiving
reports, and match goods and services against invoices under task orders 4305 and
5375.

Assistant Secretary of State for the Bureau of International
Narcotics and Law Enforcement Affairs Comments
The Acting Assistant Secretary of State, INL, agreed and stated that INL has a fully
integrated team for program management and contract oversight. This team consists of
three components (I-CORs, program officers, and headquarters in Washington, D.C.)
providing accountability through the separation of duties. The Acting Assistant Secretary
emphasized that I-CORs serve a similar function as contracting officer’s technical
representatives.

Our Response
The Acting Assistant Secretary of State’s comments were not responsive, and the actions
do not meet the intent of this recommendation. Specifically, the audit team recognizes
that INL has separate components involved within program management and contract
oversight. However, draft Recommendation C.2.b. was written to address the fact that
INL did not conduct site visits to accept or validate delivery of invoiced supplies and
services, unless the items were sensitive or of a high-dollar value. Failure to accept
delivery of inventory, prepare receiving reports, or match goods and services against
invoices increased the risk that invoiced goods and services may not have actually been



                                           27
received. Thus, the Government may have paid for goods and services that were
inadequate or not received.

In draft Recommendation C.2.b., we recommended that INL ensure that the I-CORs
accept delivery of inventory, prepare receiving reports, and match goods and services
against invoices under task orders 4305 and 5375. We request that the Assistant
Secretary of State, INL, provide additional comments in response to the final report
regarding I-CORs accepting delivery of inventory, preparing receiving reports, and
matching goods and services against invoices under task orders 4305 and 5375. The
comments should also establish a timeframe for accomplishing Recommendation C.2.c.




                                          28
Finding D. Financial Management
We were unable to identify contractor invoices and other supporting documents related to
$217 million of expenditures of ASF funds made by DOS because DOS financial
managers did not provide detailed transaction data for all expenditures of ASF funds until
after we issued our draft report. As a result, we were unable to determine if DOS
expended ASF funds provided by DOD in accordance with congressional intent.

ASF Funds Provided to DOS for ANP Training
Since FY 2006, DOD has transferred approximately $1.04 billion to DOS to support the
ANP training and mentoring program. The public laws that appropriated the ASF funds
DOD transferred to DOS established time limits on the availability of the funds. Table 1
shows the timing, legislative source, amount, and expiration of these transfers.

                             Table 1. Funds Transferred to DOS
                             Public Law      Amount Transferred
        Date                Appropriating       to (from) DOS                     Funds Expiration
                             ASF Funds            (in millions)
October 2006                   109-234              $ 399.0                        September 2007
July 2007                      109-234           (       11.0)*                    September 2007
December 2007                  110-28                  391.0                       September 2008
March 2009                     110-252                   77.3                      September 2009
April 2009                     110-252                 184.0                       September 2009
                                    Total        $ 1.04 billion
* In July 2007, DOS returned $11.0 million of the funds transferred in October 2006 to DOD.

The Defense Security Cooperation Agency transferred these funds through memoranda of
understanding with DOS and under the authority of the Economy Act, section 1535,
title 31, United States Code. These memoranda of understanding authorized DOS to use
these funds to obtain the services agreed to in accordance with the MOAs regarding the
oversight of the ANP training program (see Appendix C for an example of the MOAs).
Under these MOAs, DOS was to use these funds to:

       provide U.S. police advisors and mentors to the ANP;
       provide the advisors with adequate security and logistical, medical, and
        administrative support;
       provide housing, food, equipment, infrastructure, transportation, and other
        supplies necessary for the advisors;
       maintain and operate the ANP training centers; and
       develop and implement ANP training programs.




                                                  29
Support for Expenditure Transactions
When we finished our fieldwork in December 2009, DOS financial managers had not yet
provided detailed expenditure data that would allow us to match all expenditures with the
related contractor invoices and other supporting documentation. In response to our
requests for these transaction details during our fieldwork, the INL financial management
personnel provided spreadsheets created by INL staff and reports from their accounting
system showing disbursements of ASF funds at summary levels. This information
indicated that, as of July 2009, DOS had expended approximately $604 million of the
$1.04 billion of ASF funds provided by DOD. Table 2 shows the fiscal status reported by
DOS for the ASF funds.

                       Table 2. Status of Funds Provided by DOD
                               Amount            Amount         Amount
         Public Law         Transferred         Obligated      Expended
                             (in millions)     (in millions)  (in millions)
         109-234               $ 388.3           $ 390.6         $313.6
         110-28                   391.0             388.6         289.6
         110-252                   77.3              75.2            1.0
         110-252                  184.0             170.6            0.0
         Total                   $1.04            $1.025          $.604
         (in billions)

In a further attempt to obtain the transaction details for the disbursements of ASF funds,
we requested that the DOS Deputy Chief Financial Officer provide all disbursement
transactions for the two ANP training task orders. In response to this request, the DOS
Deputy Chief Financial Officer provided extracts from the DOS accounting system
showing expenditure transactions for both ANP training task orders. These reports
included individual transaction details for expenditures of funds appropriated under
Public Laws 109-234, 110-28, and 110-252 totaling approximately $387 million. Table 3
shows the total expenditures shown in these reports for each of the public laws.

            Table 3. Total Expenditures for Task Orders 4305 and 5375
                        Provided During Audit Fieldwork
                                    (in millions)
                          Task Order          Task Order       Total
         Public Law          4305                 5375     Expenditures
         109-234            $ 113.4               $ 0.0       $ 113.4
         110-28               149.4                123.6        273.0
         110-252                0.0                  0.2          0.2
         Total              $ 262.8             $ 123.8       $ 386.6

We successfully matched these individual transactions with contractor invoices and found
that DOS made these expenditures for goods and services provided under the two ANP


                                           30
training contract task orders. When we issued the draft report, DOS accounting managers
had not replied to our requests for the transaction details for the remaining $217 million
of reported expenditures.

In January 2010, the DOS Deputy Chief Financial Officer provided accounting system
reports of all disbursement transactions for funds appropriated under Public
Laws 109-234, 110-28, and 110-252. These reports included the expenditures made for
contractor invoices submitted for task orders 4305 and 5375, as well as expenditures
made for invoices submitted for other expenses. Table 4 shows the total expenditures
included in these reports for each of the public laws. These reports appear to include the
$217 million of reported expenditures that DOS did not provide during our fieldwork, as
well as expenditures that were made after our fieldwork.

          Table 4. Total Expenditures of ASF Funds Provided by DOD
                                  (in millions)
                Task Order     Task Order       Other Task         Total
 Public Law         4305           5375          Orders         Expenditures
 109-234           $ 289.8         $ 0.0          $ 41.7          $ 331.5
 110-28              150.8          193.3            23.7           367.8
 110-252               0.0           42.1            38.9            81.0
 Total             $ 440.6       $ 235.4          $ 104.3         $ 780.3


Because we received this additional data after we issued the draft report, we were unable
to perform sufficient testing to verify that DOS had properly accounted for all of the ASF
funds provided by DOD.

Much of the ASF funds remained unexpended well after the end of the availability period
established in the appropriation laws. Specifically, DOS reported that it had not
expended $56.8 million of the funds appropriated under Public Law 109-234 and had not
expended $23.2 million of the funds appropriated under Public Law 110-28. The
Economy Act states,

               “...the amount obligated is deobligated to the extent that the agency or
               unit filling the order has not incurred obligations, before the end of the
               period of availability of the appropriation, in - (1) providing goods or
               services; or (2) making an authorized contract with another person to
               provide the requested goods or services.”

Therefore, DOS should return the unexpended funds.




                                                  31
Recommendations, Management Comments, and Our
15B




Response
Revised, Deleted, Added, and Renumbered Recommendations
As a result of additional information, we revised draft Recommendations D.1.a.-c.,
deleted draft Recommendations D.1.d.-e., and added Recommendation D.2.b. Draft
Recommendation D.2. has been renumbered as Recommendation D.2.a.

D.1. We recommend that the Assistant Secretary of State for the Bureau of
Resource Management and Chief Financial Officer:

    a. Determine the status of the $1.04 billion of Afghan Security Forces Funds
provided by the Department of Defense to include whether the funds are expended
or expired.

   b. Return funds in excess of the amounts identified as appropriate
disbursements to the U.S. Department of the Treasury or the Department of
Defense, and at a minimum, return the $56.8 million of the funds appropriated
under Public Law 109-234 and $23.2 million of the funds appropriated under Public
Law 110-28 that had not been expended.

    c. Determine the impact of any errors identified on the annual financial
statements and make appropriate corrections, and communicate these errors to the
Under Secretary of Defense (Comptroller)/Chief Financial Officer.

Assistant Secretary of State for the Bureau of Resource
Management and Chief Financial Officer Comments Required
The Assistant Secretary of State for the Bureau of Resource Management and Chief
Financial Officer did not comment on the draft report. We request comments in response
to the final report by March 9, 2010.

D.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

    a. Determine the impact of any errors communicated by the Assistant Secretary
of State for the Bureau of Resource Management and Chief Financial Officer on the
annual financial statements and make appropriate corrections.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer, DOD, agreed, stating his office will review any
errors communicated by DOS and make appropriate corrections to the financial
statements.




                                          32
Our Response
The Deputy Chief Financial Officer’s comments were responsive, and the actions meet
the intent of the recommendation.

    b. Request the Department of State return funds in excess of the amounts
identified in Recommendation D.1.b. as appropriate disbursements to the U.S.
Department of the Treasury or the Department of Defense, including the
$56.8 million of funds appropriated under Public Law 109-234 and the $23.2 million
of funds appropriated under Public Law 110-28 that had not been expended.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments Required
We request that the Under Secretary of Defense (Comptroller)/Chief Financial Officer
provide comments in response to the final report by March 9, 2010.




                                          33
Finding E. Afghan Women’s Police Corps
The DOS and DOD ANP Program has not provided the necessary number of trained
female police because the training facility lacks the capacity to train an adequate number
of Women’s Police Corps (WPC) members. The lack of a sufficient number of trained
WPC members impairs the effectiveness of the law enforcement function in Afghanistan.

Need for Women’s Police Force
29B




Reports issued by DOS and DOD during the past three years have identified the need for
an Afghan women’s police force. An interagency assessment of Afghanistan’s police
training and readiness was conducted jointly by the DOS and DOD, which reported in
November 2006, that there were only 91 low-ranking female police officers in
Afghanistan–a country of approximately 28 million people. The report further stated that
the number of female police needed to increase substantially because, in a Muslim
society, only female police can closely interact with female suspects and respond to
domestic disputes.

INL issued a report, “The Islamic Republic of Afghanistan’s Criminal Justice Sector,” in
July 2008, reiterating that women were vastly underrepresented in Afghanistan’s police
force. Furthermore, the Afghan MOI has recognized the importance of training female
police officers. In the summer of 2008, the MOI issued a directive to the Afghan
National Police Academy, the Kabul Zonal Police Command, and the police command
centers at the districts and provinces to increase the professional education of the
women’s police force.

      Trained female police officers can effectively perform duties that, given Afghanistan’s
      customs, are more appropriate for women to undertake than men. Examples include
      staffing of family response units that respond to cases of domestic violence and security
      tasks at airports and border crossing check points.

Afghan Culture
30B




The Afghan WPC training program has not reached its full potential because of
challenges posed by Afghanistan’s culture and traditions. Afghan women have
traditionally been viewed in a subordinate role.

Although the new Afghanistan constitution, enacted in 2004, advocates equal rights for
men and women, in practice, women have still not achieved the equality mandated.
Some of the fundamental obstacles and challenges that must be overcome to facilitate
women’s induction into the ANP are:

            an overwhelming majority of the women in Afghanistan are either uneducated or
            illiterate;
           religious and cultural taboos regulate women’s roles in society;




                                                  34
       women are relegated to traditional roles, such as household or kitchen duties,
        child rearing, and low-level secretarial work; and
       male family members, tribal leaders, and clerics dictate the roles of women in
        society, which are generally very restrictive and confined.

Training Capacity
31B




The first INL-funded women’s police training program was conducted at the Herat
Regional Training Center in July 2007. Planning for a dedicated WPC facility began in
February 2008. Following the planning and construction phases, the first WPC training
class was held in Kabul in November 2008. According to INL officials, a second WPC
training facility in Jalalabad was scheduled to begin training classes in November 2009.

Both the Kabul and Jalalabad facilities are designed to train 30 women recruits over an
8-week training cycle. The Kabul WPC has trained 20 to 42 female police per class
through its first four training cycles since November 2008.

While we believe that the U.S.-funded ANP program has laid the foundation for an
effective women’s police training program, progress made so far is not adequate. At the
time of our audit only one women’s training facility in Kabul was in operation, whereas
there were eight training centers for male police officers in Afghanistan.

According to statistics provided by the U.S. training and mentoring contractor,
172,130 ANP have completed basic and advanced training courses and of those ANP,
only 131 are women.

According to the information provided by INL, approximately $6.6 million was provided
to construct and operate the WPC facilities in Kabul and Jalalabad. This amount is
insignificant compared to the total funding of approximately $7 billion provided by the
Government for the ANP program.

Recommendations, Management Comments, and Our
32B




Response
Redirected Recommendation
We revised draft Recommendation E.1. and E.2. to redirect the recommendations to
the Commanding General, Combined Security Transition Command-Afghanistan,
in coordination with the Assistant Secretary of State for the Bureau of International
Narcotics and Law Enforcement Affairs and the Afghan Ministry of Interior.

E. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan, in coordination with the Assistant Secretary of State for the
Bureau of International Narcotics and Law Enforcement Affairs, and the Afghan
Ministry of Interior establish and implement a plan within a specific timeframe that
will:



                                            35
    1. Increase the training facility capacity for female police members and provide
them training to conduct law enforcement in accordance with the requirements of
the Capability Milestones discussed in Finding A.

    2. Recruit an adequate number of female training instructors and mentors to
staff those training centers.

Assistant Secretary of State, Bureau of International Narcotics
and Law Enforcement Affairs, Comments
The Acting Assistant Secretary of State, INL, agreed that more resources should be
devoted to training Afghan female police but stated that the training requirements and
funding are regulated by the Combined Security Transition Command-Afghanistan.

Our Response
According to the Senior IG Advisor, Command Inspector General, Combined Security
Transition Command-Afghanistan, DOD will assume responsibility for the Women’s
Police Corps when the new contract is established. We request that the Commanding
General, Combined Security Transition Command-Afghanistan, review the redirected
recommendations and provide comments in response to the final report.




                                           36
Appendix A. Scope and Methodology
We conducted this performance audit from June 2009 through December 2009, in
accordance with generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This was a joint audit project between the DOS OIG and the DOD OIG. We visited INL
to understand how they manage ASF funds that the DOD provides to operate the ANP
Training Program. At their office in Washington, D.C., we met with their staff to
determine whether their oversight procedures are adequate and in accordance with the
FAR, FAH, and FMR. We specifically sought to determine how INL separately accounts
for ASF funds provided by DOD. Our assessment of DOS financial management of ASF
funds was limited because DOS did not provide sufficient detailed transaction data for us
to determine if DOS expended ASF funds provided by DOD in accordance with
congressional intent. We also evaluated whether INL is adequately overseeing contract
management requirements including reporting to DOD and working with DOD to
complete curriculum adjustments as mandated by the MOA between DOS and DOD.

We focused on FY 2006 through 2009 because this was the period that DOS and DOD
entered into agreements to train the ANP together. We requested that INL provide us
with the task orders associated with this contract that were funded by ASF funds for ANP
training. We then reviewed a non-statistical sample of 25 INL invoices and the attached
supporting documentation, including airline tickets, equipment purchase orders, meals
reimbursement vouchers, and medical fee vouchers to verify that we were provided a
complete list. After this review, we requested documentation that showed the total
amount of ASF funds disbursed for the task orders identified. We examined the
spreadsheets prepared by INL and requested supporting documentation for the amounts
shown.

We traveled to Afghanistan and visited the contractor-run training centers used to train
the ANP. We interviewed the respective staffs of INL and the contractor and reviewed
their records to document the organizational and cultural challenges they face in
recruiting and training the ANP. We reviewed the contractor’s inventory records and
conducted a physical inventory of 123 items of randomly selected, Government-furnished
property. We worked with contractor personnel to locate the items at the RTCs in Kabul,
Kandahar, Bamyan, and Herat. We also established an understanding of the staffing
requirements necessary to successfully train the ANP. We reviewed the training
curriculum and determined the level of adequacy of communication between DOD and
the contractor in creating changes. We also met with INL I-CORs to determine the
completeness of their files and adequacy of their oversight of the ANP training program.

While in Afghanistan, we also visited several of the commanders of CSTC-A to
determine the challenges they face with the current MOA and the CIVPOL contract


                                           37
between the DOS and DOD. Based on the information obtained from CSTC-A and INL,
we determined whether the needs of DOD and the overarching national strategy for
Afghanistan are being met through the current arrangement.

Use of Computer-Processed Data
3B




We were provided several documents from INL in various computing formats. The
majority of the documents were Microsoft Excel documents created by INL for their
recordkeeping purposes, and others were created by the contractor to provide clarity on
the claims made by INL and CSTC-A. We were also provided documents from the
Global Financial Management System used by DOS. We obtained a list of Government-
furnished property from the contractor’s property management system, and generated a
randomly selected list of vehicles, computers and other electronics, and sensitive items
(weapons) to verify accountable property. We did not test the reliability the Global
Financial Management System or the contractor’s property management system because
the data contained in these systems did not materially affect our findings or
recommendations.

Prior Coverage
34B




During the last five years, the Government Accountability Office (GAO), the DOS IG
and DOD IG jointly, and the Special Inspector General for Afghanistan Reconstruction
(SIGAR) have issued three reports discussing the ANP challenges, readiness, and
contractual oversight issues. Unrestricted GAO reports can be accessed over the Internet
at http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
      H               H




http://www.dodig.mil/audit/reports. Unrestricted DOS IG reports can be accessed at
H                                 H




http://www.oig.state.gov. The related unrestricted SIGAR report can be accessed at
H                             H




http://www.wifcon.com.
H                         H




GAO
47B




GAO Report No. GAO-09-280, “Afghanistan Security - U.S. Programs to Further
Reform Ministry of Interior and National Police Challenged by Lack of Military
Personnel and Afghan Cooperation,” March 2009

DOS IG and DOD IG
48B




DOS IG Report No. ISP-IQO-07-07/ DOD IG Report No. IE-2007-001, “Interagency
Assessment of Afghanistan Police Training and Readiness,” November 14, 2006

SIGAR
49B




Special Inspector General for Afghanistan Reconstruction (SIGAR) Audit-09-1,
“Contract Oversight Capabilities of the Defense Department’s Combined Security
Transition Command-Afghanistan (CSTC-A) Need Strengthening,” May 19, 2009




                                           38
Appendix B. Congressional Request




                   39
40
Appendix C. Memorandum of Agreement




                  41
42
43
44
45
46
47
48
49
50
51
52
53
Appendix D. Memorandum Report




                  54
55
Appendix E. Management Comments on the
Memorandum Report




                  56
57
58
59
60
61
Combined Security Transition Command-Afghanistan
Comments




                  Click to add JPEG file




                                 62
Click to add JPEG file




               63
Click to add JPEG file




               64
Click to add JPEG file




               65
Click to add JPEG file




               66
Click to add JPEG file




               67
Click to add JPEG file




               68
Click to add JPEG file




               69
Click to add JPEG file




               70
Under Secretary of Defense Comptroller/Chief Financial
Officer Comments




                                 71
Click to add JPEG file




               72
U.S. Department of State Bureau of International Narcotics
and Law Enforcement Affairs Comments




                    Click to add JPEG file




                                   73
Click to add JPEG file



                         Renumbered
                         Recommendations
                         C.2.a-b




                         Deleted
                         Recommendation
                         C.2.c.




               74
Click to add JPEG file




                         Redirected
                         recommendations
                         to CSTC-A, see
                         report page 34,
                         Finding E.




               75
Click to add JPEG file




               76
Defense Contract Audit Agency Comments




                  Click to add JPEG file




                                 77
Click to add JPEG file




               78
Click to add JPEG file




               79
  FRAUD, WASTE, ABUSE, OR
       MISMANAGEMENT
       of Federal programs
  and resources hurts everyone.

 Call the Office of Inspector General
               HOTLINE
             202-647-3320
          or 1-800-409-9926
  or e-mail oighotline@state.gov
to report illegal or wasteful activities.

       You may also write to
    Office of Inspector General
     U.S. Department of State
       Post Office Box 9778
        Arlington, VA 22219
    Please visit our Web site at:
         http://oig.state.gov

  Cables to the Inspector General
 should be slugged “OIG Channel”
     to ensure confidentiality.
        United States Department of State
and the Broadcasting Board of Governors
               Office of Inspector General




           Department of Defense
           Office of Inspector General
